HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at American Transitional Care, Orlando, Florida, (A-04-96-01129)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at American Transitional Care, Orlando, Florida," (A-04-96-01129)
February 28, 1997
Complete
Text of Report is available in PDF format (1.24 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $284,378 in charges reported for the 32 beneficiaries in our sample.
This amount comprises $245,524 related to physical, occupational, respiratory and speech therapy; $35,784 in unallowable
drug, supplies, laboratory and x-ray charges; and $2,370 in Part B charges. Therefore, we are recommending an adjustment
of the above charges. In addition, we request that a focused review of physical and respiratory therapies and the use of
standing orders for all therapies be conducted by the Fiscal Intermediary and State agency in order to recoup overpayments
made to this skilled nursing facility and to implement corrective action by the facility.